   March 16, 2004




Financial Management
Assets Depreciation Reported on the
U.S. Army Corps of Engineers
FY 2002 Financial Statements
(D-2004-059)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
COEMIS                Corps of Engineers Management Information System
DEPREVER              Depreciation Verification Report
ER                    Engineer Regulation
FMR                   Financial Management Regulation
GAO                   General Accounting Office
PMA                   Power Marketing Administration
IG DoD                Inspector General of the Department of Defense
USACE                 U.S. Army Corps of Engineers
          Office of the Inspector General of the Department of Defense
Report No. D-2004-059                                                     March 16, 2004
   Project No. (D2003FH-0042)

Assets Depreciation Reported on the U.S. Army Corps of Engineers
                  FY 2002 Financial Statements

                                Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers (USACE)
financial managers responsible for the calculation and reporting of depreciation, and
persons charged with the preparation of Chief Financial Officers financial statements
should read this report. This report discusses problems in the calculation and reporting of
accumulated depreciation, and the inadequate disclosure of facts related to the
preparation of financial statements.

Background. This report is one of a series of reports to be issued on accounting and
financial statements at the U.S. Army Corps of Engineers, Civil Works. The Chief
Financial Officers Act of 1990 and the Government Management Reform Act of 1994
require annual financial statement audits of the Department of Defense. As part of the
strategy to implement these laws, the Office of Management and Budget requires certain
DoD entities, including the U.S. Army Corps of Engineers, Civil Works to prepare
audited financial statements. Prior financial statement audits of the U.S. Army Corps of
Engineers, Civil Works have resulted in disclaimers of opinion because of material
deficiencies in the statements and supporting information.

This report addresses the accumulated depreciation for buildings and structures that the
USACE annually reports on its Balance Sheet. On its FY 2002 financial statements,
USACE reported the acquisition cost of its buildings and structures as $30.5 billion.
Accumulated depreciation of $12.5 billion reduced the net book value of these assets to
$18.0 billion. Before the publication of the FY 2002 financial statements, we performed
audit work to determine if the amount of accumulated depreciation reported on the
financial statements was fairly stated.

Because time constraints precluded USACE from providing sufficient audit-ready
evidential material to meet deadlines established by the Office of Management and
Budget, we were unable to complete audit work and therefore, did not render an opinion
on the USACE FY 2002 Financial Statements. After the Office of Management and
Budget deadline, USACE and the Assistant Inspector General for Auditing of the
Department of Defense signed a memorandum of agreement. The memorandum outlined
agreed-upon audit procedures to allow Office of the Inspector General of the Department
of Defense auditors to verify the material line items on the FY 2002 Balance Sheet and
beginning balances for the audit of the FY 2003 financial statements. Verifying a
beginning balance for accumulated depreciation directly affected one of the material line
items on the USACE Balance Sheet.

Results. We were not able to verify the beginning balance for accumulated depreciation.
Further, in the process of performing agreed-upon procedures, we identified deficiencies
in the disclosure of information in the notes accompanying the financial statements.
Finally, we determined that USACE calculations relative to the “useful life” of a property
were not always in compliance with DoD standards.

The $12.5 billion presented in the USACE FY 2002 Financial Statements for
accumulated depreciation was not reliable. As a result, the beginning balance for
accumulated depreciation to be reported in the USACE FY 2003 Financial Statements
could be misstated by as much as $293 million (net). USACE should verify the recorded
depreciation for all of its buildings and structures and correct the accumulated
depreciation for those assets (finding A).

We concluded after reviewing the notes to the FY 2002 financial statements, that USACE
did not adequately disclose the relationship between itself and the Power Marketing
Administrations. Because of these disclosure omissions, the financial statements did not
provide relevant information about the USACE business operation. USACE should
provide adequate disclosure in the financial statement for those accounts affected by the
relationship between the assets owned and operated by USACE, and the Power
Marketing Administrations’ marketing of the electrical power derived from some of these
assets (finding B).

USACE did not comply with the guidance pertaining to “useful life” contained in the
DoD 7000.14-R, “DoD Financial Management Regulation,” August 2000, when
depreciating its buildings and structures. As a result, USACE could be significantly
understating accumulated depreciation in its financial statements. USACE should
perform a study to determine the true useful life of its assets and request a revision to
DoD 7000.14-R, “DoD Financial Management Regulation,” for those assets, if necessary.
In addition, USACE should verify the accuracy of the useful lives assigned to its assets
and update the engineering regulation to include guidance relative to useful life for its
Other civil assets (finding C). See the Finding section for the detailed recommendations.

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers concurred with using the depreciation variance report to identify the assets that
required adjustments to the recorded accumulated depreciation and made $489 million in
adjustments to the FY 2003 depreciation amount. However, we request that USACE
assert to the Inspector General of the Department of Defense auditors whether all
required adjustments were made. For the districts where substantial variances still exist
between the depreciation variance report and recorded depreciation, we request that
USACE provide the results and reasons for the remaining variances to the Office of the
Inspector General of the Department of Defense for review and concurrence. We request
that the Commander, U.S. Army Corps of Engineers comment on the final report by
April 16, 2004. See the Finding sections of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objective                                                                      1

Findings
     A. Reliability of the Accumulated Depreciation Amount Presented in the
          FY 2002 Financial Statements                                         2
     B. Disclosure of the U.S. Army Corps of Engineers and the Power
          Marketing Administration Relationship                               10
     C. Asset Useful Life                                                     14

Appendixes
     A.    Scope and Methodology                                              20
     B.    Prior Coverage                                                     22
     C.    Glossary                                                           24
     D.    Department of Defense Recovery Periods                             25
     E.    Report Distribution                                                26

Management Comments
     U.S. Army Corps of Engineers                                             29
Background
    This audit was performed in support of the Chief Financial Officers Act of 1990
    (Public Law 101-576), as amended by the Government Management Reform Act
    of 1994 (Public Law 103-356). As part of the strategy to implement these laws,
    the Office of Management and Budget requires certain DoD entities, including the
    U.S. Army Corps of Engineers, Civil Works, to prepare audited financial
    statements. This report is one of a series resulting from our audits of the
    U.S. Army Corps of Engineers (USACE), Civil Works financial statements for
    FY 2002.

    When the Inspector General for the Department of Defense (IG DoD) published
    the, “Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil
    Works, Fiscal Year 2002 Principal Financial Statements,” (Report
    No. D2003-043), January 2003, we did not report on asset depreciation. We
    stated that time constraints precluded USACE providing sufficient audit-ready
    evidential material for the auditors to complete the audit. We went on to state that
    unfinished audit work would be completed as an agreed-upon procedure.

    A subsequent memorandum of agreement between USACE and IG DoD,
    “Agreed-Upon Procedures to Establish Beginning Balances for the Audit of the
    U.S. Army Corps of Engineers, Civil Works, FY 2003 Financial Statements,”
    January 8, 2003, outlined procedures to verify material line items on the
    FY 2002 Balance Sheet. The memorandum also provided for verifying beginning
    balances in preparation for the audit of the FY 2003 financial statements. For
    FY 2002, USACE reported $12.5 billion in accumulated depreciation on
    $30.5 billion of assets for the Buildings, Structures, and Facilities category of
    General Property, Plant, and Equipment.

    The Department of Energy administers four Federally-owned power-marketing
    agencies in the United States. These include the Western Area Power
    Administration, the Bonneville Power Administration, the Southeastern Power
    Administration, and the Southwestern Power Administration. These Power
    Marketing Administrations (PMAs) sell to Federal and state agencies and to
    publicly owned utilities. USACE produces and supplies some of the power sold
    by the PMAs, and approximately one-third of the USACE buildings and
    structures relate to power production. Finding B discusses matters related to the
    disclosure of the relationship between USACE and the PMAs.


Objective
    The overall audit objective was to determine whether USACE could rely on the
    ending balance of accumulated depreciation presented in the U.S. Army Corps of
    Engineers, Civil Works, FY 2002 Financial Statements to establish the beginning
    balance in the U.S. Army Corps of Engineers, Civil Works, FY 2003 Financial
    Statements. See Appendix A for a discussion of the scope and methodology of
    the audit, and Appendix B for prior coverage related to the objective.




                                         1
           A. Reliability of the Accumulated
              Depreciation Amount Presented in the
              FY 2002 Financial Statements
           USACE cannot rely on the $12.5 billion of accumulated depreciation it
           reported for buildings and structures in its FY 2002 financial statements to
           establish the beginning balance for its FY 2003 financial statements. This
           is primarily because USACE did not comply with generally accepted
           accounting principles (GAAP) when it converted from the composite to
           the straight-line method of depreciation for hydropower assets. As a
           result, the beginning balance for accumulated depreciation in the FY 2003
           Financial Statements may be misstated by as such as $293 million (net) if
           USACE relies on the previously reported FY 2002 ending balance.


Before CEFMS
    Depreciable Assets. Beginning in 1993, USACE converted its accounting
    system from the Corps of Engineers Management Information System (COEMIS)
    to the Corps of Engineers Financial Management System (CEFMS). At the time
    of conversion, the USACE buildings and structures assets were divisible into
    three depreciation categories. These categories were hydropower assets—assets
    that it used for electrical power production, which the Power Marketing
    Administrations distribute—revolving fund assets; and the buildings and other
    civil structure assets. Before the conversion, USACE districts calculated
    depreciation only for hydropower and revolving fund assets. Table 1 shows the
    distribution of USACE buildings and structures among the three categories as of
    September 30, 2002. As of that date, the book cost for hydropower and revolving
    fund assets totaled $10.7 billion, while the remaining category, Other civil,
    totaled $19.9 billion. Based on dollar value or quantities, the USACE was not
    depreciating a majority of its assets before CEFMS.


                 Table 1. Categories of USACE Buildings and Structures
                                   September 30, 2002
                                        ($ Millions)

                             No. of                   Accumulated
        Category of Assets             Book Cost                      Net Book Value
                             Items                    Depreciation
       Hydropower             24,131        $10,370       ($ 3,811)         $ 6,559
       Revolving Funds         1,046            313           (123)             190
       Other Civil            32,357         19,867         (8,573)          11,294

       Total                  57,534        $30,550       ($12,507)         $18,043




                                        2
           Depreciation Methods. While using COEMIS, USACE depreciated hydropower
           assets based on a composite service life for a group of assets collectively referred
           to as a feature. (A glossary of terms is included as Appendix C.) Engineer
           Regulation (ER) 37-2-10, “Financial Administration - Accounting and Reporting
           - Civil Works Activities,” 1 April 1969 supplied the method for calculating the
           composite life for the feature. The districts used the composite life to calculate
           the annual depreciation charge for the entire feature rather than calculating
           depreciation charges on individual assets. That method was a form of composite
           or group depreciation. Following conversion to CEFMS, the districts used, and
           continue to use, the straight-line method of depreciation, which calculates
           depreciation on individual assets rather than on a feature or collection of assets.
           The change from composite to straight-line depreciation was a change in
           accounting principle. Both before and after the conversion to CEFMS, USACE
           used the straight-line method of depreciation for revolving fund assets.


Criteria
           Change in Depreciation Method. GAAP 1 in Accounting Principles Board
           (APB) Opinion No. 20, July 1971, paragraph 9, states that an example of a change
           in accounting principle is, “…a change in depreciation method….” The
           authoritative literature specifies a general rule that a change in accounting
           principle requires an adjustment to the financial statements in the year of the
           change. That is, the cumulative effect of the change should be reported in the
           year in which the principle changes.

           Correction of an Error. The same Opinion, in paragraph 13, describes errors in
           financial statements and states, “errors result from mathematical mistakes;
           mistakes in the application of an accounting principle, or oversight or misuse of
           facts that existed at the time the financial statements were prepared.” Correction
           of an error requires a restatement of prior period statements used in comparative
           financial statements.


Reliability of the Reported Accumulated Depreciation Amount
           The $12.5 billion presented in the USACE FY 2002 Financial Statements for
           accumulated depreciation for buildings and structures was not reliable. We
           sought to verify the reported depreciation by comparing the amount of
           depreciation recorded for the assets comprising the $12.5 billion of accumulated
           depreciation with the amount calculated using the straight-line method. We
           determined that the principal reason for the differences was that when USACE
           changed from composite to straight-line depreciation of individual assets, it did
           not make the required accounting adjustments.


1
    The primary GAAP source relating to the change in depreciation methods and the accounting response is
    contained in Accounting Principles Board Opinion No. 20, “Accounting Changes,” July 1971. While the
    Opinion establishes that a change in depreciation method is a change in accounting principle, it also
    defines a correction of an error. Further, it establishes what responses to take for both a change in
    accounting principle and correction of an error.


                                                    3
Compliance with Generally Accepted Accounting Principles
           USACE did not comply with GAAP when it converted from the composite to
           straight-line method of depreciation. The conversions took place district-by-
           district over several years beginning in December 1993 and concluding in March
           1998. The appropriate accounting response under these circumstances would
           have been for each district to make the cumulative adjustment. The converting
           district should have recalculated depreciation for each of the individual assets
           using the straight-line method of depreciation, compared the calculated amount
           with the recorded amount, and totaled the differences for all the hydropower
           assets. The combined differences for the individual hydropower assets would
           have been the amount to record as a cumulative adjustment. Along with the
           cumulative adjustment, the districts should have adjusted the amount of
           accumulated depreciation for each asset at the beginning of the year in which the
           conversion took place.

           USACE Calculations. During the change to CEFMS, each converting district
           began separately depreciating the individual assets as opposed to depreciating
           them together as a feature. The resulting total depreciation from a feature was
           then allocated to each of the individual assets. Once the individual asset was
           loaded into CEFMS, the system began to calculate all future depreciation charges
           on a straight-line basis. In addition, the districts began to depreciate previously
           un-depreciated “other civil assets.” The districts calculated and recorded a catch-
           up amount for the depreciation that they should have recorded for each asset as of
           the end of the fiscal year preceding the conversion.2 Once the catch up amount
           was loaded into CEFMS, the system performed the calculations for the
           depreciation expense during the conversion year.

           Depreciation Allocation. Thirteen of the 14 districts with hydropower assets did
           not adjust the accumulated depreciation for the hydropower assets to the amount
           that they should have accumulated, had the straight-line method been in place
           since the date the asset entered service. Rather, they split up the features’ assets,
           established individual records for the assets and allocated the existing
           accumulated depreciation for the feature to the individual assets. Documents
           provided by the districts clearly showed that the amount of accumulated
           depreciation calculated using the old and new depreciation methods was not the
           same, that is, an adjustment was required to modify the recorded amount to the
           amount that would have been recorded had the new method been used since the
           asset was placed-in-service.




2
     APB No. 20 states in paragraph 13 that a change from a not generally accepted accounting principle to
    one that is generally accepted is a correction of an error. In general, depreciation is appropriate for long-
    lived assets and the change from not depreciating other civil assets to depreciating them meets the
    definition of correction of an error. However, the DoD policy on depreciating general property, plant,
    and equipment before 1998 only required depreciation on assets used by the Defense Business Operations
    Fund activities and USACE was therefore in compliance with the DoD policy.



                                                        4
Hydropower Depreciation Balances
           Estimating Accumulated Depreciation. Because USACE did not make the
           required adjustments, USACE may have misstated the accumulated depreciation
           for hydropower assets in its financial statements by at least $293 million (net).
           The absolute value of the differences for the assets that comprise the
           $293 million (net) amount is $673.2 million. To estimate the $293 million (net)
           we relied on the calculations of a report that exists within CEFMS and which is
           available to each of the USACE districts. The depreciation verification report
           (DEPREVER) calculates the straight-line depreciation for each individual asset
           possessed by the district. The report then compares the amount of recorded
           depreciation in CEFMS with the amount calculated on a straight-line basis. For
           each asset, the report displays both the amount of depreciation difference and the
           percent of difference. Each month the calculated amount increases when the
           district runs the report because the calculation uses the months in service times a
           monthly rate.3 In order to comply with our recommendations, USACE will have
           to modify the report to calculate the number of months in service as of
           September 30, 2001, rather than the month the report is run. USACE officials
           have stated that they modified the report to calculate the months in service as of
           September 30, 2001.

                          Variables Affecting Depreciation Calculations. The accuracy of
           both the CEFMS and DEPREVER report depreciation calculations were
           dependent on variables that we did not verify when we determined the difference
           between the recorded and straight-line depreciation. One significant variable was
           the book cost for assets that entered service before the conversion to CEFMS.
           The book cost of these assets may include improvements that the district had not
           separately recorded in CEFMS, and which, therefore, are not recognized for the
           DEPREVER report calculation. Two other variables CEFMS and the
           DEPREVER report used for depreciation calculations were the placed-in-service
           date and the asset useful life. We discuss the useful life variable in finding C of
           this report.

                          Unrecorded Improvements. Unrecorded improvements to an
           asset, which may be included in an asset’s book cost, can cause estimated
           depreciation to vary widely from the recorded depreciation. Presumably, USACE
           used the asset value, including improvements completed before converting to
           CEFMS, to calculate the accumulated depreciation recorded at the time of
           conversion.4 Assets with improvements completed before USACE converted to
           CEFMS would generally have less recorded accumulated depreciation than the
           DEPREVER calculated amount. The reason for this difference is that the
           DEPREVER report assumes that the entire book cost, except for assets with
           additions and betterments recorded in CEFMS, should be depreciated from the
3
    For an asset without a recorded addition and betterment, the monthly rate is simply the book cost less its
    salvage value divided by the service or useful life. The monthly rate is constant unless the useful life,
    salvage value, or book cost changes; for example, the book cost increases because of an addition or
    betterment.
4
    If USACE calculated the pre-CEFMS asset value properly, the depreciation for the asset would only
    depreciate the improvement from the time the improvement was completed. That being true, the
    accumulated depreciation at the time of conversion would have been less than the amount derived from a
    simple straight-line calculation that used a book cost that was the total of the original acquisition cost and
    the cost of the betterment and the initial or original acquisition date.


                                                         5
    date the asset was placed-in-service. Accordingly, if part of the book cost—the
    addition and betterment cost—was from a date later than the date the asset was
    placed-in-service, the DEPREVER report overstated the calculated depreciation
    amount. However, improvements completed after conversion to CEFMS should
    be separately recorded in CEFMS, and consequently the DEPREVER report
    properly accounts for them when calculating straight-line depreciation.

                    Placed-in-Service Dates. Another significant variable in the
    calculation of depreciation is the placed-in-service date. The date recorded in
    CEFMS may not have been the date originally used to calculate the depreciation
    accumulated before USACE converted to CEFMS. Even with no improvements
    or changes in depreciation life, different dates designated as placed-in-service
    dates will result in a different accumulated depreciation amount for the same
    asset. Our conclusion is that the DEPREVER provides a legitimate baseline
    against which to compare recorded depreciation, but that USACE must compare
    and verify the accumulated depreciation for each asset individually.


Non-Hydropower Assets
    Significant unexpected variances between the calculated and recorded
    depreciation also exist for non-hydropower assets that USACE, with the
    exception of revolving fund assets, was not depreciating before converting to
    CEFMS; and for which the only depreciation method has been the straight-line
    method. Although our audit fieldwork concentrated on the depreciation variances
    for hydropower assets, an examination of the information in the DEPREVER
    reports indicates that differences between the recorded depreciation and
    calculated depreciation amounts are not limited to hydropower assets. For
    example, for the 14 districts with hydropower assets, the net difference for
    hydropower assets was $293 million. Those same districts also had non-
    hydropower assets. When we combined the non-hydropower and hydropower
    assets’ differences for the 14 districts, the net difference between the recorded and
    calculated amounts was $299.7 million. The remaining districts that did not have
    hydropower assets also had variances between the recorded and calculated
    depreciation amounts. Because the assets in these districts were limited to
    revolving fund or other civil assets, the change in accounting principle cannot be
    the cause of these differences. Based on our limited analysis, the recorded
    depreciation amounts vary from the straight-line calculated depreciation amounts
    by approximately $49.7 million (net) in excess depreciation for non-hydropower
    assets exclusive of revolving fund assets. Although the differences occurred
    primarily at three districts, all districts had some variances.


Necessary USACE Action
    USACE should not just substitute the DEPREVER calculation for the
    accumulated depreciation amount for each asset. If the book cost of an asset
    contains an improvement that was completed before the CEFMS conversion, or if
    the placed-in-service date is not correct; an adjustment will be required to
    establish the correct amount of depreciation as of September 30, 2001. Once
    USACE corrects the amount of depreciation in CEFMS, USACE must then


                                          6
   recalculate the depreciation expense for FYs 2002 and 2003 based on item-by-
   item corrections.

   Because 13 districts did not make the required adjustments at the time of
   conversion to CEFMS, the change now required is a correction of an error rather
   than a cumulative adjustment. The practical impact of treating the adjustment as
   a correction of an error is that USACE will need to correct both the FYs 2002 and
   2003 depreciation amount. That is, correction of an error requires a restatement
   of any prior years used in comparative financial statements. Before it can
   correctly calculate depreciation for both FY 2002 and FY 2003, USACE must
   adjust accumulated depreciation for all its buildings and structures to the amount
   that should have been recorded as of September 30, 2001.

   The method CEFMS uses to calculate monthly depreciation expense makes it
   necessary for USACE to first adjust accumulated depreciation to September 30,
   2001. CEFMS calculates the monthly expense by dividing the net book value of
   the asset by the number of months of remaining service life. Net Book Value is
   the book cost, less accumulated depreciation and salvage value. Remaining
   service life is the assigned service life of the asset less the number of months the
   asset has already been in service. Consequently, when the net book value is
   misstated, the monthly calculation for depreciation expense will also be wrong.
   Because the districts did not change the accumulated depreciation for hydropower
   assets at the time of conversion, the accumulated depreciation was incorrect as of
   September 30, 2001. As a result, the FY 2002 depreciation expense, which will
   be included as part of the FY 2003 financial statements, was wrong and must be
   corrected. Similarly, USACE districts without hydropower assets or those
   districts with both hydropower and non-hydropower assets will have to adjust
   depreciation for non-hydropower assets to the amount that they should have
   accumulated to September 30, 2001, and recalculate the expense for FY 2002 and
   FY 2003. Corrections to the depreciation amounts for these assets is also a
   correction of an error and requires that USACE restate the prior year statements
   used for comparative purposes.


Summary
   When USACE converted to CEFMS, it changed its method for depreciating
   hydropower assets. USACE then started depreciating other civil assets such as
   buildings and structures that were not considered revolving fund or hydropower
   assets. A change in depreciation method is defined by GAAP as a change in
   accounting principle. The proper accounting treatment when changing the
   depreciation method is to make a cumulative adjustment for the difference
   between the recorded amount of depreciation, and the amount that would have
   been recorded, had the new method been in effect since the asset was placed-in-
   service. The USACE districts did not make the required cumulative adjustment
   and, as a result, the amount of accumulated depreciation currently recorded for
   hydropower assets is significantly, and possibly materially, misstated. USACE
   districts without hydropower assets and those districts with both hydropower and
   non-hydropower assets have variances for non-hydropower assets that should be
   examined and corrected. Correction of the variances for hydropower assets will
   require each USACE district to review the accumulated depreciation for each
   asset rather than simply substituting the DEPREVER straight-line calculated


                                        7
    amount. USACE cannot just substitute the DEPREVER calculation because if
    the book cost of an asset includes an improvement completed before the CEFMS
    conversion, a manual adjustment will be required to adjust the beginning CEFMS
    balance. Because each district did not make the required adjustment at the time of
    conversion, the change now required is a correction of an error rather than a
    cumulative adjustment. The practical impact of treating the adjustment as
    correction of an error is that USACE will need to correct the FY 2002
    depreciation expense as well as the FY 2003 expense. That is, correction of an
    error requires a restatement of any prior years used in comparative financial
    statements. For the non-hydropower assets and non-revolving fund assets, the
    districts should be able to rely on the DEPREVER calculation to supply the
    amount of depreciation to record because the straight-line method is the only
    method that USACE has used to depreciate these assets. Revolving fund asset
    adjustments are subject to a constraint similar to the hydropower assets, that is,
    any improvements completed before the CEFMS conversion must be considered
    before adjusting the recorded depreciation.



Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, U.S. Army Corps of Engineers:

          1. Modify the depreciation variance report to calculate the amount of
    accumulated straight-line depreciation that should have been accrued as of
    September 30, 2001.

    Management Comments. The Commander, USACE concurred and stated that
    the depreciation variance report was modified to calculate the amount of
    accumulated straight-line depreciation accrued as of September 30, 2001.

           2. Compare the accumulated depreciation for each asset with the
    amount calculated in Recommendation 1. and determine if an adjustment to
    the accumulated depreciation is appropriate.

    Management Comments. The Commander, USACE concurred and stated that
    the necessary reviews were performed and that over $489 million in adjustments
    were made. The details of the adjustments were provided to the IG DoD.

    Audit Response. The U.S. Army Corps of Engineers comments were responsive.
    However, we questioned the completeness of the review, particularly for Power
    Marketing Administration districts such as Walla Walla. We request that USACE
    assert to the IG DoD auditors whether all required adjustments were made. For
    districts where substantial variances still exist between the depreciation variance
    report and the recorded depreciation, we request that USACE provide the results
    and reasons for the remaining variances to the Office of the Inspector General of
    the Department of Defense for review and concurrence.

            3. Adjust the accumulated depreciation for each asset for which there
    is a difference identified in Recommendation 2. to the amount that should
    have been recorded as of September 30, 2001.


                                         8
Management Comments. The Commander, USACE concurred and made over
$489 million in adjustments.

Audit Response. The U.S. Army Corps of Engineers comments were responsive.
However, we request that USACE assert to the IG DoD auditors whether all
required adjustments were made. For districts where substantial variances still
exist between the depreciation variance report and the recorded depreciation, we
request that USACE provide the results and reasons for the remaining variances
to the Office of the Inspector General of the Department of Defense for review
and concurrence.

       4. Recalculate the FYs 2002 and 2003 depreciation amount based on
the net book value and number of useful life months remaining as of
September 30, 2001.

Management Comments. The Commander, USACE concurred and made over
$489 million in adjustments to the FY 2003 accumulated depreciation amount.
This adjustment corrected the FY 2003 ending balance and FY 2004 beginning
balance for accumulated depreciation.

Audit Response. The U.S. Army Corps of Engineers comments were responsive.
However, we request that USACE assert to the IG DoD auditors whether all
required adjustments were made. For districts where substantial variances still
exist between the depreciation variance report and the recorded depreciation, we
request that USACE provide the results and reasons for the remaining variances
to the Office of the Inspector General of the Department of Defense for review
and concurrence.

           5. Disclose the FY 2002 restatement as a footnote to the FY 2003
financial statements.

Management Comments. The Commander, USACE concurred and stated that
the USACE will footnote the depreciation adjustment in their FY 2004 financial
statements.

Audit Response. The U.S. Army Corps of Engineers comments were responsive.
However, we request that USACE assert to the IG DoD auditors whether all
required adjustments were made. For districts where substantial variances still
exist between the depreciation variance report and the recorded depreciation, we
request that USACE provide the results and reasons for the remaining variances
to the Office of the Inspector General of the Department of Defense for review
and concurrence. We do accept the fact that the FY 2003 financial statements
had been published as of the issuance of the responses to the draft of this report.
Therefore, we accept the footnote to the FY 2004 financial statements.




                                    9
             B. Disclosure of the U.S. Army Corps of
                Engineers and the Power Marketing
                Administration Relationship
             USACE did not adequately disclose its relationship with the PMAs in
             USACE FY 2002 financial statement notes. The relationship entails the
             PMAs’ use of some of the assets owned and operated by USACE to
             market electrical power produced by USACE. The disclosures in the
             Management and Discussion Analysis overview section of the financial
             statements were inadequate because USACE did not update and enhance
             the PMA information. As a result, USACE has not met the
             characteristics of understandability, relevance, consistency, and
             comparability in its disclosure of the USACE and PMA relationship in
             the financial statements. In particular, the omission of significant and
             material accounting information regarding USACE and the PMAs
             distorted the financial report information.


Criteria
     The Statement of Federal Financial Accounting Concepts, No. 1: “Objectives of
     Federal Financial Reporting,” Chapter 6: “Qualitative Characteristics of
     Information in Financial Reports,” September 2, 1993, paragraph 156 states:
                 Financial reporting is the means of communicating with those who use
                 financial information. For this communication to be effective,
                 information in financial reports must have these basic characteristics:
                 understandability, reliability, relevance, timeliness, consistency and
                 comparability.

     Specific note disclosure criteria within the DoD 7000.14-R “DoD Financial
     Management Regulation,” volume 6B, chapter 10, January 2002, that would
     apply to the disclosure omissions are as follows:

      •    Note 10. General Property, Plant, Equipment, Net. Section 101202. F. Other
           Information states, “Disclose on line 2 of this note other information
           necessary to understand the General PP&E line item on the reporting entity’s
           Balance Sheet.”

      •    Note 1G. Accounting For Intragovernmental Activities. Section 100302
           states, “Each reporting entity shall review its financial processes, systems
           and data, and modify and expand, as necessary, the sample disclosure
           statement so that each statement is a complete and accurate representation of
           the issue being addressed.”

      •    Note 19F. Exchange Revenue. Section 102118 states, “Reporting entities
           that provide goods and services to the public or another government entity
           shall disclose specific information relating to the pricing policies and any
           expected losses under goods made to order.”




                                              10
      •       Note 24. Other Disclosures. Section 102604 states, “Any additional
              disclosure deemed necessary by the reporting entity in order to provide a
              better understanding of information presented elsewhere in the statements
              shall be numbered consecutively 24B, 24C, etc.”


Adequacy of Disclosed Information
     The FY 2002 financial statements did not contain adequate disclosure of the
     relationship between USACE and the PMAs. Specifically, USACE did not
     disclose the following information.

          •     The financial statements should disclose the significance and materiality
                of the PMA related assets. There are 24,000 individual PMA related
                assets within the USACE asset universe of 57,000 items. These PMA
                related assets are valued at $10.3 billion in comparison to the total
                USACE real property asset value of $30.5 billion.

          •     USACE maintains separate accounting records within CEFMS in order to
                prepare annual financial statements, and to report this financial statement
                data for the 75 separate power projects to the PMAs.

          •     The PMAs submitted revenue to the U.S. Treasury on behalf of USACE.
                The revenue was derived from sales of power generated by USACE
                assets. In the USACE 2002 Annual Report, USACE reported the revenues
                in the Management Discussion and Analysis, Profile of Civil Works,
                Business Programs Section, but not in the financial statement notes
                section. The Management Discussion and Analysis section stated, “In FY
                2002 the Federal PMAs returned $700 million to the U.S. Treasury from
                power sales.” We think that USACE should report financial information
                of this magnitude in the notes section of the financial statements.

          •     USACE received direct appropriation funding from the Bonneville PMA
                for operations and maintenance costs of the USACE assets related to the
                Bonneville PMA power projects. In December 1997, Bonneville and
                USACE entered into a ten-year agreement for direct funding that is
                expected to result in roughly $100 million per year in direct payments by
                Bonneville, beginning in fiscal year 1999.


Past Disclosures
     These disclosure omissions occurred because in prior financial statements, the
     Army Audit Agency made the disclosure about the significance and materiality of
     PMA related assets but not about the financial statement preparation and




                                             11
     revenues. It is probable that USACE did not report PMA related asset
     information in FY 2002 because USACE had not reported this information in the
     past.


Importance of the Relationship
     The USACE financial statements, as written, do not make readers aware of the
     magnitude and materiality of USACE involvement with power production.
     Furthermore, in respect to the revenue submissions and direct appropriation
     funding by the PMAs, the omission of this important financial information serves
     to distort the true financial picture of USACE.


Conclusion
     USACE has not met the characteristics of understandability, relevance,
     consistency, and comparability in the financial statements in its disclosure of the
     USACE and PMA relationships. In particular, the omission of significant and
     material accounting information regarding the USACE and PMAs has resulted in
     ineffective communication on financial report information.


Recommendations and Management Comments
     B. We recommend that the Commander, U.S. Army Corps of Engineers

             1. Disclose in the financial statement notes those accounts affected by
     the relationship between the assets owned and operated by the U.S. Army
     Corps of Engineers and the Power Marketing Administrations’ marketing of
     electrical power derived from some of these assets. Specifically, the U.S.
     Army Corps of Engineers should disclose:

                      a. Significance and materiality of Power Marketing
     Administration related assets in Note 10, General Property, Plant, and
     Equipment, Section F. Other Information.

                      b. Maintenance of separate accounting records and
     preparation of individual financial statements for 75 separate power projects
     in Note 1G, Accounting for Intragovernmental Activities.

                      c. Revenue submissions made by the Power Marketing
     Administrations on behalf of the U.S. Army Corps of Engineers in Note 19F,
     Exchange Revenue.

                    d. Direct appropriation funding made by the Power
     Marketing Administrations in Note 24, Other Disclosures.




                                          12
Management Comments. The Commander, USACE concurred and stated that
they disclosed the facts as appropriate in the footnotes of the FY 2003 Financial
Statements or the Management Discussion and Analysis section of the FY 2003
Financial Statements.

     2. Provide a detailed explanation of the relationship between U.S.
Army Corps of Engineers and Power Marketing Administrations in the
Management Discussion and Analysis section of the financial statements.

Management Comments. The Commander, USACE concurred and stated that
the relationship between USACE and the Power Marketing Administration was
further explained in their FY 2003 Management Discussion and Analysis section
of the FY 2003 Financial Statements.




                                    13
            C. Asset Useful Life
            USACE did not comply with the DoD 7000.14-R, “DoD Financial
            Management Regulation,” (FMR), August 2000 guidance concerning what
            “useful life” periods to use when depreciating its buildings and structures,
            such as dams, locks and hydropower generation assets. This occurred
            because USACE established its own useful life tables for both hydropower
            and revolving fund assets, asserting that it followed the Federal Energy
            Regulatory Commission guidelines for asset useful life periods. In
            addition, USACE did not establish useful life period tables for “Other
            Civil” assets. As a result, the accumulated depreciation shown in USACE
            financial statements would be understated by as much as $8.2 billion if the
            DoD maximum useful life periods policy of 40 years was followed.


Depreciation Useful Life Guidance
     DoD Guidance. DoD guidance for depreciation in relation to useful life is
     contained in the “DoD Financial Management Regulation” volume 4, chapter 6,
     “Property, Plant, and Equipment,” August 2000. For computing depreciation on
     General PP&E, the “DoD Standard Recovery Periods Table,” prescribes recovery
     (useful life) periods of 5, 10, 20, and 40 years. It also permits depreciation over a
     period of less than 5 years under limited conditions. (See Appendix D for the
     table.)

     USACE Guidance. The USACE depreciation guidance is set forth in
     ER 37-2-10, “Financial Administration - Accounting and Reporting - Civil Works
     Activities,” April 1, 1969. ER 37-2-10 prescribes the accounting systems and
     related procedures for all USACE civil works activities. It is applicable to all
     division and district offices. Although USACE first published ER 37-2-10 on
     April 1, 1969, it has since changed the regulation 89 times. USACE updated most
     of the tables prescribing depreciation intervals in 1995, although some of the
     useful life guidance is dated to 1991.

     Specific USACE guidance concerning useful lives is in ER 37-2-10, chapter 15,
     Appendix B, “Minimum and Maximum Useful Life Years,” October 1, 1991, and
     chapter 31, Appendix A, section 31-A-5, “Plant Items,” April 21, 1995.
     Chapter 15 includes policy for revolving fund structures, which vary from a
     maximum of 10 years for a temporary structure, to 20 to 50 years for permanent
     structures. The information in chapter 31 is more detailed and includes intervals
     up to 100 years. USACE district personnel assign useful lives to assets by
     reference to ER 37-2-10.




                                          14
USACE Compliance with Guidance
    USACE did not comply with FMR guidance concerning what useful life periods
    to employ for depreciating its buildings and structures. Table 2 shows the useful
    life periods USACE was using and the number and dollar value of the assets in
    each useful life grouping. USACE was depreciating more than 75 percent of its
    assets with useful life periods that exceeded the DoD maximum of 40 years.
    From a dollar perspective, USACE was depreciating more than 93 percent of its
    assets employing useful life periods that exceeded the DoD maximum.


                      Table 2. Buildings & Structures Universe
                                September 30, 2002
                                     ($ Millions)
        Useful Life   Number of      Percent of Total                 Percentage of
                                                        Book Cost
         (Years)      Properties        Number                         Total Cost

            0 - 40          14,110              24.5%       $ 2,108            6.9%
          40 - 50           24,544              42.7%         9,987           32.7%
           50 - 75             365               0.6%           631            2.1%
          75 - 100          18,475              32.1%        16,975           55.5%
            100 +               40               0.1%           848            2.8%

           Total            57,534           100.0%         $30,549          100.0%


    FMR Prescribed Useful Lives. USACE was not employing the FMR prescribed
    useful life periods. USACE has never asked for a waiver from the useful life
    criteria in the FMR. In addition, the useful life periods that USACE did employ
    were not generally in consonance with other Government or private sector useful
    life periods. For example, the Department of Energy stated in its, “Performance
    and Accountability Report, FY 2001,” that for structures and facilities, it used
    depreciation intervals of 25-50 years. In addition, in October 2002, the General
    Accounting Office (GAO) reported the results of its survey of capitalization and
    useful life policies for both private sector and Government organizations.

    GAO Survey Results. The GAO results are described in GAO-03-42, “Financial
    Management-Survey of Capitalization Threshold and Other Policies for Property,
    Plant and Equipment,” October 15, 2002. The GAO surveyed policies in both
    private sector and Government organizations. GAO found that most
    organizations within the private sector apply a maximum useful life of between
    40 and 50 years for buildings, and between 30 and 40 years for other structures.
    The same survey showed that most Government organizations have a maximum
    useful life of between 30 and 40 years for buildings and between 20 and 40 years
    for other structures. The report notes that the Federal Accounting Standards
    Advisory Board does not prescribe specific classifications of estimated useful life
    periods. Instead, it requires that useful life consider economic, environmental,
    and technological factors such as physical wear and tear and obsolescence.




                                           15
           GAO also identified several policy differences attributable to the variety of assets
           owned by the entities that participated in its survey, rather than any systematic
           differences in useful life classifications.


Foundation for USACE Guidance
           USACE had established its own useful life tables for both hydropower and
           revolving fund assets, asserting that it followed the Federal Energy Regulatory
           Commission guidelines for useful life.5 As discussed in Finding A, USACE was
           primarily depreciating the hydropower category of assets before it converted to
           CEFMS in the 1990s. In our discussions with the USACE staff about the useful
           life periods they were using, the staff asserted that USACE had established the
           useful life periods years ago in consultation between its staff and the Federal
           Energy Regulatory Commission staffs. However, USACE was not able to
           provide documentation to support its assertions.

           Further surrounding the basis for the USACE useful life intervals is the absence
           of guidance in ER 37-2-10 about what useful lives to employ for depreciating the
           non-hydropower and non-revolving fund assets labeled as “Other Civil” assets in
           Table 1. While chapter 15 contains guidance for the revolving fund assets and
           chapter 31 for hydropower assets, ER 37-2-10 has no specific chapter for the
           two-thirds of the assets that are not revolving fund or hydropower assets. By
           inspection of the other civil assets useful lives, we can state that the useful lives
           for these assets are also not in compliance. The 57,534 items shown in Table 1
           include 32,357 6assets that are other civil assets. Figure 1 shows that of the
           32,357 assets, only 25.6 percent have an assigned useful life of 40 years
           (480 months) or less, the DoD maximum useful life.

           Figure 1. Useful Life Assigned to USACE Other Civil Assets

                                                                  100.0%
                                 15,000                                    100.0%
                No. of Records




                                                                                    Cumulative




                                 12,000                                    80.0%
                                                             69.9%
                                                                                     Percent




                                  9,000                                    60.0%
                                  6,000       25.6 %                       40.0%
                                  3,000                                    20.0%
                                      0                                    0.0%
                                          0-480    481-961     962-1442
                                            Useful Life in Months



5
    The Financial Management Regulation (FMR) table of recovery periods (useful life periods) presented at
    Appendix C was not published until 1998. Before that date, the FMR stated that useful life was not based
    on a standard table of useful life periods, but on actual or planned retirement or replacement practices.
    The FMR guidance published in 1995 did, however, limit the maximum useful life to 40 years; USACE
    should have modified its useful life tables to not exceed 40 years, or have requested a waiver.
6
    To facilitate presentation, two items included in the total of 32,357 assets in the other civil category
    shown in Table 1 with an assigned useful life of greater than 1442 months were excluded from the chart.



                                                             16
    Because of the relationship between USACE and the Power Marketing
    Administrations, there may be a supportable basis for considering Federal Energy
    Regulatory Commission guidance as a foundation for establishing useful lives for
    hydropower assets; however, the case is weakened for other civil assets.

    Noncompliance with ER 37-2-10. We performed two tests of controls over the
    establishment of useful life. The first test was to ensure that the asset had a useful
    life of 2 years or greater and the second test was to determine whether the useful
    life recorded in CEFMS matched the useful life prescribed in ER 37-2-10.
    During our fieldwork, we statistically sampled 80 records from a universe of
    5,842 records. These records were part of the total universe of 57,534 records for
    buildings and structures, but our sample universe was limited to those records that
    had changed between October 1, 1999, and September 30, 2002. Of the
    80 buildings or other structures still in use as of September 30, 2002, we tested
    50 for proper controls in establishing the asset’s useful life. The remaining
    30 assets were either not in service as of September 30, 2002, or were no longer
    physically present.

    All 50 assets had useful lives greater than 2 years. Eleven of the 50 failed control
    testing because the useful life in CEFMS differed from ER 37-2-10 chapter 31,
    Appendix A. Nine of the eleven buildings and structures had a useful life less
    than what was required by ER 37-2-10, chapter 31, Appendix A. The remaining
    two assets had a useful life greater than prescribed in ER 37-2-10 chapter 31,
    Appendix A. Based on these results, USACE has yet to direct the districts to
    validate the current useful lives to determine if the assigned useful lives are in
    substantial compliance with ER 37-2-10 guidance.

    USACE Uncommon Items. USACE does possess some real property assets for
    which longer useful lives may be appropriate. These assets such as dams, locks,
    levees, and hydropower generation assets do not readily fit within the useful life
    categories in the DoD table at Appendix C, and USACE should consider asking
    for a waiver from the DoD requirements. However, only assets that have a
    demonstrated useful life longer than the DoD prescribed 40 years should have
    longer useful life established; that is, if the asset clearly does not fit within the
    DoD categories. USACE should perform a study of these assets to determine and
    establish meaningful useful lives for depreciating the assets. Once established,
    USACE should seek either a waiver from the DoD Comptroller or a change to the
    FMR to incorporate useful lives for these assets.


Consequence of Longer Useful Lives
    As a result of not complying with DoD policy guidance on useful lives, the
    USACE accumulated depreciation shown on its financial statements could be
    understated by as much as $8.2 billion, (based upon useful life not exceeding
    40 years, the DoD maximum). However, USACE asserts that the depreciation
    intervals in the FMR are not appropriate for some of its assets. While we offer no
    conclusion about this assertion, we recommend that USACE demonstrate that the
    DoD FMR intervals are not appropriate for some of its assets and, further, what
    intervals are appropriate for those same assets, as well as the “other civil” assets.




                                          17
Conclusion
    Useful life policies should ensure that USACE depreciates its assets over a
    reasonable useful life and hence allocate depreciation expense to the appropriate
    period. USACE should base decisions about useful life on a reasonable estimate
    of how long an asset can actually be used. A majority of the assets currently in
    the USACE buildings and structures account can reasonably comply with the
    useful life established by DoD regulation and should not be exempt from these
    requirements. However, the USACE has assets that, while currently in use, have
    already exceeded the useful lives established by the DoD policy guidance, and
    require longer useful lives to be established. We think that assets such as dams,
    dikes, power plants, etc, should have useful lives established for them. However,
    these useful lives need to be formally established, approved by the DoD
    Comptroller, and used sparingly.


Recommendation and Management Comments
    C. We recommend that the Commander, U.S. Army Corps of Engineers:

            1. Perform a study to establish which U.S. Army Corps of Engineers
    assets should not be depreciated using the useful lives established by the
    Financial Management Regulation, and determine the appropriate useful life
    (operational) for U.S. Army Corps of Engineers assets such as dams, bridges,
    and hydropower generation assets.

    Management Comments. The Commander, USACE concurred and noted that
    the USACE has undergone a study to determine the appropriate useful life for all
    USACE-owned assets and will provide the results to the IG DoD when completed
    for review and concurrence.

            2. Upon completion of the study in Recommendation C.1. request
    either a waiver from the Financial Management Regulation requirements or
    else a revision of the Financial Management Regulation to incorporate the
    additional depreciation useful lives.

    Management Comments. The Commander, USACE concurred and stated that
    with the completion of the study, USACE will request a waiver from the DoD
    Financial Management Regulation.

           3. Develop a plan to select a random sample of buildings and
    structures in order to verify that assigned depreciation intervals are
    consistent with policy guidance.

    Management Comments. The Commander, USACE concurred and agreed to
    develop a plan to verify that the assigned depreciation intervals are consistent
    with the new policy, which will be written based on the results of the study.




                                        18
      4. Change ER 37-2-10 to incorporate the DoD 7000.14-R, “DoD
Financial Management Regulation,” useful life standards to include specific
guidance for the depreciation of other civil assets.

Management Comments. The Commander, USACE concurred and noted that
once the study is completed and agreed to by the IG DoD, USACE will request a
waiver from the DoD Financial Management Regulation based on USACE-
unique mission requirements.




                                  19
Appendix A. Scope and Methodology
   This is one in a series of projects to perform agreed-upon procedures to verify
   beginning balances for the audit of the U.S. Army Corps of Engineers, Civil
   Works, FY 2003 Financial Statements. Originally, our review was limited to
   verifying the FY 2003 beginning balance for the accumulated depreciation of the
   USACE buildings and structures and was dependent upon other audit teams to
   verify the acquisition cost and in-service dates for those assets. We identified and
   analyzed the variances between the amount of reported depreciation and the
   amount of expected straight-line depreciation, which is the depreciation method
   USACE uses to depreciate its buildings and structures. During the course of our
   audit fieldwork, we identified deficiencies in the financial statement disclosures
   and added work concerning financial statement disclosures to our fieldwork and
   reporting.

   We reviewed Statements of Federal Accounting Concepts No. 1, “Objectives of
   Federal Financial Reporting,” September 1993; Statements of Federal Financial
   Accounting Standards No. 6, “Accounting for Property, Plant, and Equipment,”
   November 1995; Statements of Federal Financial Accounting Standards No. 21,
   “Reporting Corrections of Errors and Changes in Accounting Principles;” and
   Accounting Principles Board No. 20, “Accounting Changes,” July 1971. We
   reviewed the Corps of Engineers Regulation 37-2-10, chapter 15,”Revolving
   Fund Fixed Asset Accounting,” October 1991; and chapter 31, “Accounting
   Treatment for Multiple-Purpose Projects,” April 1994 as well as the USACE
   conversion manual, appendix L, “Multi-Purpose Power Accounting”, August
   1996. We also reviewed the DoD Financial Management Regulation, volume 4,
   chapter 6, “Property, Plant, and Equipment,” August 2000. We reviewed the
   Corps record retention and accounting policies, and we considered the reports of
   the independent auditors of the power marketing administrations in our review of
   the USACE relationship to the Power Marketing Administrations.

   Our team visited five USACE districts - Baltimore, Maryland; Walla Walla,
   Washington; Portland, Oregon; Huntington, West Virginia; and Nashville,
   Tennessee. We also held meetings with headquarters personnel in Washington,
   D.C. Our work included procedures to evaluate the reasonableness of the
   CEFMS buildings and structures data received from IG DoD auditors in
   Indianapolis, Indiana and provided by the USACE accountants in Huntsville,
   Alabama. To understand the annual changes in accumulated depreciation, we
   reviewed current and prior year financial statements and requested a client-
   prepared schedule of the annual depreciation expense and prior period
   adjustments. We requested explanations for the depreciation variances of
   judgmentally selected assets from each of four districts and prepared a schedule
   of hydropower assets, showing the possible variances between recorded
   depreciation and straight-line depreciation. Our review of the depreciation
   verification report's algorithm established that the report provides a valid baseline
   for the analysis of asset depreciation if the source data is accurate. Finally, we
   assessed the USACE compliance with the DoD Financial Management
   Regulation in establishing asset useful lives and we reviewed actions relating to
   the conversion from COEMIS to CEFMS.




                                        20
We performed this audit from December 2002 through August 2003 in
accordance with generally accepted government auditing standards; however, our
scope was limited in that we did not include tests of management controls.

Use of Computer-Processed Data. We used computer-processed data from
CEFMS for this audit; however, we were not able to confirm the reliability of the
buildings and structures data. The lack of reliable data did not permit us to
establish the FY 2003 beginning balance for the accumulated depreciation of the
USACE buildings and structures. Other reports on general and application
controls have revealed weaknesses in CEFMS.

General Accounting Office High-Risk Area. The General Accounting Office
has identified high-risk areas in the Department of Defense. This report provides
coverage of the DoD Financial Management high-risk area.




                                    21
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) have issued reports related to the
    U.S. Army Corps of Engineers, Civil Works, Financial Statements. Unrestricted
    GAO reports can be accessed over the Internet at http:www.gao.gov/.
    Unrestricted IG DoD reports can be accessed at
    http:www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-03-42, “Financial Management-Survey of Capitalization
    Threshold and Other Policies for Property, Plant and Equipment,” October 15,
    2002

    GAO Report No. GAO-02-589, “Corps of Engineers Making Improvements, But
    Weaknesses Continue,” June 10, 2002

    GAO Report No. GAO/AMID-00-235, “Computer Control Weaknesses over the
    Corps of Engineers Financial Management System,” September 2000


IG DoD
    IG DoD Report No. D-2003-043, “Independent Auditor’s Report on the U.S.
    Army Corps of Engineers, Civil Works, Fiscal Year 2002 Principal Financial
    Statements,” January 6, 2003

    IG DoD Report No. D-2001-067, “Inspector General, DoD, Oversight of the
    Army Audit Agency Audit of the FY2000 U.S. Army Corps of Engineers, Civil
    Works Program, Financial Statements,” February 28, 2001


U.S. Army Audit Agency
    Audit Report No. AA 02-142, “Fiscal Year 2001 Financial Statements, U.S.
    Army Corps of Engineers, Civil Works,” February 8, 2002

    Audit Report No. AA-01-359, “Audit of the U.S. Army Corps of Engineers FY 00
    Financial Statements, Civil Works (Property, Plant, and Equipment Valuation),”
    June 28, 2001

    Audit Report No. AA 01-319, “Corps of Engineers Financial Management
    System General and Application Controls,” June 26, 2001

    Audit Report No. AA 01-187, “Fiscal Year 2000 Financial Statements, U.S.
    Army Corps of Engineers, Civil Works,” February 14, 2001



                                       22
Audit Report No. AA-00-186, “FY99 Financial Statements, U.S. Army Corps of
Engineers, Civil Works,” February 18, 2000

Audit Report No. AA-99-157, “FY98 Financial Statements, U.S. Army Corps of
Engineers, Civil Works,” February 8, 1999




                                 23
Appendix C. Glossary
Accumulated Depreciation is the amount of depreciation expense that has been added
over a period of time, calculated from the placed-in-service date of the asset.

Acquisition Cost includes all amounts incurred to bring the asset to a form and location
suitable for its intended use. Some examples include: amounts paid to vendors,
transportation charges to the point of initial use, and handling and storage costs.

Book Cost is synonymous with acquisition cost.

Composite Depreciation is the term used to describe a method of depreciation for a
group of assets, collectively referred to as a feature, and based upon their individual
useful life periods.
Feature is a term used to describe a group of assets. Within the USACE context,
individual assets have been combined into a unit to facilitate accounting control.

Net Book Value is the acquisition cost (book cost), less the accumulated depreciation
and salvage value of the asset.

Other Civil describes the category of assets that are neither hydropower related assets
nor Revolving Fund related.

Placed-In-Service refers to the date that an asset is physically complete and available for
use. Assets are recognized when title passes to the acquiring entity or when the asset is
delivered to the entity or to an agent of the entity. It defines the start of the capitalization
and depreciation expense process.

Recovery Period is a term synonymous with useful life period.
Remaining Service Life is the assigned service life of an asset less the number of
months the asset has already been in service.
Straight-Line is the depreciation method that allocates the acquisition cost of an asset,
equally over the useful life period.

Useful Life Period is the estimated time period for an asset to provide its intended
service. The concept recognizes the deterioration of items due to the aging process.




                                              24
Appendix D. Department of Defense Recovery
            Periods
                    DoD RECOVERY PERIODS FOR DEPRECIABLE
                                GENERAL PP&E ASSETS
                   (Excludes National Defense PP&E and Heritage Assets)

                  Description of General PP&E Assets                                      Recovery Period

General Purpose Vehicles (Includes Heavy Duty Trucks and Buses); ADP
Systems and Hardware (Computers and Peripherals); High Tech Medical
Equipment; Equipment used in Research, Development, Test and
Evaluation (RDT&E); Radio and Television Broadcasting Equipment; and                           5 Years*
Software
Improvements to 5-Year Recovery Period Property (Personal Property)
All Other Equipment, Machinery and Software**
                                                                                               10 Years
Improvements to 20-Year Recovery Period Property

Vessels, Tugs, Barges and Similar Water Transportation Equipment (Non-
National Defense PP&E vessels/ships)
Steam (12.5K pounds per hour or more) and Electric Generation
Equipment (500 Kilowatt or more), Sewers and Other Utilities (including                        20 Years
such things as fiber optic cable)
Fences, Roads, Bridges, Towers, Ship and Railroad Wharves and Docks,
Dry Docks, Fuel Storage Facilities and Other Real Property Structures.
Improvements to 40-Year Recovery Period Property

Buildings, Hangers, Warehouses, Fuel Storage Buildings, Air Traffic                            40 Years
Control Towers, and Other Real Property Buildings

Improvements to Leased Buildings and Other Real Property (Leasehold                      Remainder of Lease
Improvements)                                                                            Period or 20 Years
                                                                                         Whichever Is Less

Land Rights of Limited Duration                                                          Over the Specified
                                                                                             Duration

* A recovery period of less than 5 years is permitted when the acquiring DoD Component is certain that
the
useful life of an asset is at least 2 years but less than 5 years. In such circumstances, the recovery period
shall be the known useful life (2-4 years, as appropriate).
** Depending on the nature of the software, it may be depreciated over a period of less than 5 years,
5 years, or 10 years. The determining factor should be the actual estimated useful life of the software
consistent with that used for planning the software’s acquisition.




                                                      25
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)

House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform

House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         27
U.S. Army Corps of Engineers Comments




                     29
30
31
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.
Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Harold R. Tollefson
Kenneth R. Weron
Marlon A. Moreira
Yalonda N. Blizzard
Leon D. Bryant
Nathan R. Witter
